ORIGINAL
97
NO.

■SupiBmeJSUrt, U:Sr
FILED

AUG 2 3 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

JOSE YEYILLE
Petitioner,
v.
ARMANDINA ACOSTA-LEON; et al
Respondents.

PETITION FOR A WRIT OF CERTIORARI TO
THE FLORIDA SUPREME COURT

Jose Yeyille
5505 SW 135th Court
Miami, Florida 33175

(August 23, 2021)

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
Armandina Acosta Leon
Lisa Robertson
Asuncion Valdes
Egna Rivas
Alberto Carvalho
The School Board of Miami-Dade County, Florida

11

QUESTION PRESENTED

Whether Florida Constitution Article V, Sections 3(b)(3),
3(b)(7), and 3(b)(8). Jenkins v. State, 385 So. 2d 1356 (1980),
and Grate v. State, 750 So. 2d 625 (Fla. 1999) intentionally bar
discretionary review for Petitions for Writs of Prohibition,
MANDAMVS, CERTIORARI, and any other writ to the
Florida Supreme Court to indigents, and indigent PROSE
Black and Hispanic parties in violation of their Equal Protection
and Due Process rights, and Access to Courts rights protected by
Section 1 of the Fourteenth Amendment to the Constitution of
the United States and the Petition Clause of the First Amendment
to the Constitution of the United States.

in

TABLE OF CONTENTS
Page

QUESTION PRESENTED FOR REVIEW

111

TABLE OF CONTENTS

IV

INDEX TO APPENDICES

,vi

TABLE OF AUTHORITIES

IX

OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE AND FACTS

5

REASONS FOR GRANTING THE WRIT

22

ARGUMENT

23

4446

I.

WHATEVER SPRINGES THE STATE MAY SET FOR THOSE
WHO ARE ENDEAVORING TO ASSERT RIGHTS THAT THE
STATE CONFERS. THE ASSERTION OF FEDERAL RIGHTS,
WHEN PLAINLY AND REASONABLY MADE, IS NOT TO BE
DEFEATED UNDER THE NAME OF LOCAL PRACTICE 5)M
[QUOTING DAVIS V. WECHSLER, 263 U.S. 22,24 (1923)].
BROWN V. WESTERN R. CO. OF ALABAMA, 338 U.S. 294,298299 (1949)............................................................................................ 23

II.

WHETHER FLORIDA CONSTITUTION ARTICLE V, SECTION 3
(b)(3), JENKINS V. STATE, 385 SO. 2D 1356 (1980) AND GRATE v.
STATE, 750 So. 2d 625 (Fla. 1999) INTENTIONALLY BAR REVIEW
TO PETITIONS FOR WRITS OF CERTIORARI AND ANY OTHER
WRIT TO THE FLORIDA SUPREME COURT TO INDIGENTS
IV

AND INDIGENT PROSE BLACK AND HISPANIC PARTIES IN
-V-tGEATIONOF THEIRrEQUALTPROTECTION AND DUE
PROCESS RIGHTS PROTECTED BY THE FOURTEENTH
AMENDMENT TO THE CONSTITUTION OF THE UNITED
STATES AND ACCESS TO COURTS RIGHTS PROTECTED BY
THE FOURTEENTH AMENDMENT AND THE PETITION CLAUSE
OF THE FIRST AMENDMENT TO THE CONSTITUTION OF THE
,27
UNITED STATES
A. Whether PETITIONER can Petition the judiciary of the State of
Florida to declare unconstitutional Florida Constitution Article V,
53(b)(3) and Jenkins v. State, 385 SO. 2D 1356 (1980)

B.

C.

D.

28

Standing

29

Whether the judiciary of the State of Florida can legally
violate PETITIONER’S federal constitutional rights to
Equal Protection, Due Process, and Access to Courts....

30

Florida Constitution Article V, §§3(b)(3), 3(b)(7), and 3(b)(8),
Jenkins v. State, 385 So. 2d 1356 (1980) and Grate v. State, 750
So. 2d 625 (Fla. 1999) (Writs of CERTIORARI, M ANDAMVS,
and CERTIORARI) violate PETITIONER’S Equal Protection,
Due Process, and Access to Courts rights protected by Section 1
of the Fourteenth Amendment to the Constitution of the United
States.................................................................................................

,31

The Florida Supreme Court’s dismissal of PETITIONER’S
Writ of MANDAMVS and Writ of Prohibition for lack of
jurisdiction on account that the Appellate Court issued PER*
CVRIAM affirmances without opinions violate PETITIONER’S
Equal Protection, Due Process, and Access to Courts rights
protected by Section 1 of the Fourteenth Amendment to the
Constitution of the United States.................................................... 36

CONCLUSION AND RELIEF SOUGHT

39

PROOF OF SERVICE

41
v

INDEX TO APPENDICES
1. Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-858 (August 18,
2021).
2. Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-931 (June 21,
2021).
3. Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-888 (June 14, 2021).
4. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824
(June 2, 2021).
5. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824 (May 26,
2021). (PER«CVRIAM affirmance without opinion) EMAS, C.J., and
SCALES and GORDO, JJ.
6. Jose Yeyille v. Armandina Acosta-Leon, et al., Case No. 2018-22362
(December 4, 2020).
7. Jose Yeyille v. Armandina Acosta-Leon, et al., SC 18-937
(July 6, 2018). The petition to invoke all writs jurisdiction is dismissed
for lack of jurisdiction.
8. Jose Yeyille v. Armandina Acosta-Leon, et al., SC 18-845
(May 31, 2018). This Court lacks jurisdiction to review an unelaborated
decision from a district court of appeal that is issued without opinion.
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
9.
Jose Yeyille v. Armandina Acosta-Leon, et al., 3D17-2605 (May 22,
2018). Appellant’s PROSE motion for rehearing, clarification and
issuance of written opinion pursuant to Appellate Rule of Civil Procedure
9.330(a) is hereby denied. LAGOA, SALTER, and EMAS, JJ concur.
10. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D17-2605
(May 2, 2018). PER*CVRIAM affirmance without opinion.
LAGOA, SALTER, and EMAS, JJ.

vi

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Amer. Ry. Exp. Co. v. Levee, 263 U.S. 19 (1923)

24

Borough ofDuryea v. Guarneri, 564 U.S. 379 (2011)

,29

Brinkerhoff-Faris Co. v. Hill, 281 U.S. 673 (1930)

31,33

Brooks v. Florida, 389 U.S. 413, 415 (1967)
Brown v. Western R. Co. ofAlabama, 338 U.S. 294 (1949)

10
18, 23,26

California Transport v. Trucking Unlimited, 404 U.S. 508 (1972)

28

Callender v. Florida, 380 U.S. 519 (1965)

10

Carney v. Adams, 592 U.S.___(2020)

30

Cleburne v. Cleburne Living Ctr., 473 U.S. 432 (1985)

35

Cruz v. Hauck, 404 U.S. 59 (1971)

35

18,23

Davis v. Wechsler, 263 U.S. 22 (1923)

30

De Jonge v. Oregon, 299 U.S. 353 (1937)

Dickenson v. Parks, 104 Fla. 577,579 (Fla. 1932)

,26,37

F. Hofpmann-La Roche, Ltd. v. Empagran, S.A., 542 U.S. 155 (2004)

,22

Florida v. Rodriguez, 469 U.S. 1 (1984)

10

Foley v. Weaver Drugs, Inc., 177 So. 2d 221 (1965)
Gideon v. Wainwright, 372 U.S. 335 (1963)
••

vi| <$•

5, 6,32
10,36

Grate v. State, 750 So. 2d 625 (Fla. 1999)

27,30,31

Griffin v. Illinois, 351 U.S. 12 (1956)

34,36

Hobbie v. Unemployment Appeals Commission of Florida,
480 U.S. 136 (1987)...............................................................

10

Howlett v. Rose, 496 U.S. 356 (1990)

25

Ibanez v. Florida Department ofBusiness and Professional
Regulation Bd. ofAccountancy, 512 U.S. 136 (1994)...........
In re Murchison, 349 U.S. 133 (1955)

10
26,36,37

Jenkins v. State, 385 So. 2d 1356 (Fla. 1980)

all

Lake v. Lake, 103 So. 2d 639 (Fla. 1958)

5, 6, 7,32

Lujan v. Defs. of Wildlife, 504 U.S. 555 (1992)

30

Masterpiece Cakeshop Ltd. V. Colo. Civil Rights Common,
138 S. Ct. 1719 (2018)..........................................................

32

McKnett v. St. Louis & S. F. Ry., 292 U.S. 230 (1934)
Minnesota v. National Tea Co., 309 U.S. 551 (1940)
N.A.A.C.P. v. Button, 371 U.S. 415 (1963)

17,24, 26,31
,31
,28,29

Norton v. Shelby County, 118 U.S. 425 (1886)

16

Romer v. Evans, 517 U.S. 620 (1996)

34

Rosenhouse v. 1950 Spring Term Grand Jury, 56 So. 2d 445 (Fla. 1952).....24
Shelley v. Kraemer, 334 U. S. 1 (1948)

34

Sweatt v. Painter, 339 U.S. 629 (1950)

34
•• #
Vlll

X/

The State of Florida Ex Rel. Virgil D. Hawkins,
zr^rRelaior-v-Board-of-Gontrol^93Sor2d-354(F\ar\957)

8r27739

Topps v. State, 865 So. 2d 1253 (Fla. 2004)

18
(2021)

Uzuegbunam, et al. v. Preczewski, et al., 592 U.S.

Village ofArlington Heights v. Metropolitan Housing Development
Corp., 429 U.S. 252 (1977)..................................................................

22,30

34, 36
,22

Webb v. Webb, 451 U.S. 493 (1981)

32

Williams v. Rhodes, 393 U.S. 23 (1968)
Williams-Yulee v. Florida Bar, 135 S. Ct. 1656 (2015)

6, 7,38
34,36

Yick Wo v. Hopkins, 118 U.S. 356 (1886)

STATUTES AND RULES
16,28,29

United States Constitution, First Amendment
United States Constitution, Fourteenth Amendment

3,10, 24,28,31,36

28 U.S.C. § 1257(a)

,3,22

28 U.S.C. §2403(b)

3, 41 Proof of Service

RULE 10(C) OF THE SUPREME COURT
OF THE UNITED STATES (2019).............

,22

RULE 29(4)(c) OF THE SUPREME COURT
OF THE UNITED STATES (2019).................

4SWF-

3, 41 Proof of Service

lV

(T/.

Florida Constitution, Article V, 83(b)(3)

all

Florida Constitution, Article V, 53(b)(7) and 53(b)(8)

all

OTHER
Charles de Secondat, Baron de Montesquieu. De l’esprit des loix (1748),
Livre XI, Chapitre 6..................................................................................

,5

Craig E., Leen. Without Explanation: Judicial Restraint, Per Curiam
Affirmances, and the Written opinion Rule.
FIU Law Review Vol. 12, Number 2 (20217)............................................

9

Dyckman, Martin A. A Most Disorderly Court, Scandal and Reform in
7,38
the Florida Judiciary (2008 ed.)
Jefferson, Thomas. Letter from Thomas Jefferson to William Johnson,
27 October 1822........................................................................................... 11
Judicial Management Council. Final Report and Recommendations.
Committee on Per Curiam Affirmed Decisions, May 2000
10,12,13,33
5

P*VERGILI*MARONIS*AENEIDOS
Rose, Henry. The Poor as a Suspect Class under the Equal Protection
Clause: An Open Constitutional Question, 34 Nova Law Review 407
(2010)..........................................................................................................
Wolff, David E. The Extraordinary Remedy of Mandamus: A Creative
Solution to Formidable Jurisdictional Hurdles. Vol 90, No. 2 February
2016. Florida Bar Journal...............................................................................

.35

,7

United Nations General Assembly. Human Rights Council: Report of the
Special Rapporteur on Extreme Poverty and Human Rights on his
mission to the United States of America (2018)......................................... ,35

si

OPINIONS BELOW
1. Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-858 (August 18,
2021). Petition for Emergency Writ of Prohibition seeking to Disqualify
Chief Judge Kevin Emas of the Third District Court of Appeal. “To the
extent Petitioner seeks a writ of prohibition, the petition is hereby dismissed as
moot. To the extent Petitioner seeks review of the Third District Court of
Appeal’s decision in Yeyille v. Acosta-Leon, et al., 2021 WL 2134516
(Fla. 3d DCA May 26, 2021)(table), the petition is hereby dismissed for lack of
jurisdiction. See Grate v. State, 750 So. 2d 625 (Fla. 1999). No motion for
Appx 1
rehearing or reinstatement will be entertained by this Court.”
2. Jose Yeyille v. Armandina Acosta-Leon, et al., SC21 -931 (June 21,
2021). Invocation to the Discretionary Jurisdiction of the Florida
Supreme Court for a Petition for Writ of Certiorari. This case is hereby
dismissed. This Court lacks jurisdiction to review an unelaborated decision
from a district court of appeal that is issued without opinion. Jenkins v.
Appx 2
State, 385 So. 2d 1356 (Fla.1980)
Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-888
(June 14, 2021). Petition for Writ of MANDAMVS to command the
trial court and district court of appeal to rule on constitutionality of
Florida Constitution, Article V$3(b)(3) and Jenkins v. State, 385 So. 2d
1356 (Fla. 1980) is dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued
Appx 3
without opinion Jenkins v. State, 385 So. 2d 1356 (Fla. 1980)
3.

4. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824
(June 2, 2021). Appellant’s Pro Se Amended Motion for the
Retroactive Disqualification of Chief Judge Kevin Emas is hereby
denied. Appellant’s pro se Motion for Rehearing, Certify Question
of Great Public Importance, and for Written Opinion is hereby
Appx 4
denied. EMAS, C.J., and SCALES and GORDO, JJ., concur
5. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824 (May 26,
2021). (PER*CVRIAM affirmance without opinion) EMAS, C.J., and
Appx 5
SCALES and GORDO, JJ
1

6. Jose Yeyille v. Armandina Acosta-Leon, et al., Case No. 2018-22362
CDeG<3mber-4, 2020). Order-Granting-Defendants!_Combined Motion to
Dismiss with Prejudice and Order of Dismissal.
Appx 6
Judge Antonio Arzola
7. Jose Yeyille v. Armandina Acosta-Leon, et al., SC 18-937
(July 6, 2018). The petition to invoke all writs jurisdiction is dismissed
Appx 7
for lack of jurisdiction
8. Jose Yeyille v. Armandina Acosta-Leon, et al., SC 18-845
(May 31, 2018). This case is hereby dismissed. This Court lacks
jurisdiction to review an unelaborated decision from a district court
of appeal that is issued without opinion. Jenkins v. State, 385 So. 2d
Appx 8
1356 (Fla. 1980)
9.
Jose Yeyille v. Armandina Acosta-Leon, et al., 3D17-2605
(May 22, 2018). Appellant’s PROSE motion for rehearing,
clarification and issuance of written opinion pursuant to Appellate
Rule of Civil Procedure 9.330(a) is hereby denied.
Appx 9
LAGOA, SALTER, and EMAS, JJ concur
10. Jose Yeyille v. Armandina Acosta-Leon, et al., 3D17-2605
(May 2, 2018). PER*CVRIAM affirmance without opinion.
LAGOA, SALTER, and EMAS, JJ................................................... Appx 10

2

JURISDICTIONAL STATEMENT
The jurisdiction of this Court is invoked under 28 U.S.C. §I257(a) and Rule
10(C) of the Supreme Court of the United States. 28 U.S.C. §2403(b) and
Rule 29(4)(c) of the Supreme Court of the United States apply because
PETITIONER is challenging the constitutionality of a Florida statute and the
cases of its supreme court upholding its validity. Copy of this Petition for a
Writ of CERTIORARI was served to the Attorney General of the State of Florida.
Petitioner respectfully requests that a Writ of CERTIORARI issue to review
the judgments of the Florida Supreme Court.
In its opinions, the Florida Supreme Court dismissed PETITIONER’S Writ
of CERTIORARI: Writ of MANDAMVS: and Writ of Prohibition seeking to
disqualify and recuse Third District Court Chief judge Kevin Emas on the
peculiar ground that it lacked jurisdiction on account that he issued
PER*CVRIAM affirmances without opinions (hereinafter “PCA”).
In so doing, the Florida Supreme Court violated PETITIONER’S Access to
Courts, Due Process, and Equal Protection rights protected by the First and
Fourteenth Amendment to the United States Constitution.

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution. First Amendment.
Congress shall make no law...abridging.. .the right of the people...
to petition the government for a redress of grievances.
United States Constitution. Fourteenth Amendment, Section 1.
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
Florida Declaratory Judgment Statutes §§86.011 through 86.111
Florida Constitution, Article V, §3(bi(3i: IThe Florida Supreme Court!
May review any decision of a district court of appeal that expressly declares
valid a state statute, or that expressly construes a provision of the state or
federal constitution, or that expressly affects a class of constitutional or state
officers, or that expressly and directly conflicts with a decision of another
district court of appeal or of the supreme court on the same question of
law, [emphasis].
Florida Constitution, Article V, 83(b)(7): [The Florida Supreme Court]
May issue writs of prohibition to courts and all writs necessary to the complete
exercise of its jurisdiction.
Florida Constitution, Article V, 83(b)(8): [The Florida Supreme Court]
May issue writs of mandamus and quo warranto to state officers and state
agencies.

4

STATEMENT OF THE CASE AND FACTS
In 1979 all but one of the justices of the Florida Supreme Court, went to the
People bearing a gift1. The gift was the product of a most unnatural alliance
between justices and legislators.2 Justices, who ordinarily resist any attempt by
the other two branches of government to limit their power, invited legislators to
forsake the potholes in their constituents’ streets in favor of enacting legislation
limiting the power of the Court. The ostensible pretext for the improbable
covenant was to reduce the Court’s “staggering case load” which “had become
almost intolerable.” Jenkins v. State, 385 So. 2nd 1356,1358-9 (Fla. 1980).
This pretext was recycled from Lake v. Lake, 103 So. 2d 639 (Fla. 1958).
In Foley v. Weaver Drugs, Inc., 177 So. 2d 221 (1965) the Florida Supreme
Court decided that it had lied when it proclaimed that its case load would

i

“I fear the Greeks, even those bearing gifts.” TIMEODANAOS*ET*
DONA-FERENTIS-P*VERGILI«MARONIS*AENEIDOS*LIBER*
SECVNDVS. Beware of justices of a Supreme Court, even those bearing gifts.
CAVE*IVDICES*ET*DONA*FERENTIS. Jenkins v. State, 385 So. 2nd 1356,
(Fla. 1980).
2
“[Tjhere is no liberty if the judiciary power be not separated from the legis­
lative and executive. Were it joined with the legislative, the life and liberty of the
subject would be exposed to arbitrary control; for the judge would be then the
legislator.” De Desprit des loix (1748). Livre XI, Chapitre 6. Charles de
Secondat, Baron de Montesquieu.
5

become staggering and intolerable.3,4
Enlisting the support of The Conference of Circuit Judges of Florida and the
Appellate Judges’ Conference, berobed cartels who have vested interests in
preventing judicial review and discriminating against the cases brought by
minorities and the poor; and adopting the politician’s cant, the justices went
about personally hawking their Amendment to the People.5 Their vaunted
“representations” made “to the public at large” that they were just proposing

3

Id. at 223-224. “It appears...that in actual practice this court has not
been relieved of any substantial portion of its workload by the policy
announced in Lake case respecting per curiam decisions....[n]or is there any
legal distinction between the effect of a per curiam decision without opinion,
so that one is not entitled to and should not given any more ““verity”” than
the other.”

4
In essence, PETITIONER’s Amended Petition for Declaratory Judgments
for Constitutional Challenges is a petition to the Florida Supreme Court to
return to the Foley regime.
5

Jenkins 1356-1365. “Television appearances and radio spots were scheduled
whenever possible for the justices supporting the amendment...” Id. at 1363.
Judges and justices coming to the bench by way of the ballot may not be con­
sidered politicians—Williams-Yulee v. Florida Bar, 135 S. Ct. 1656,1662
(2015)—, but Florida justices selling their spurious amendment to the People
through the media and other outlets acted as, and were politicians endowed with
the qualities attributed to those involved in that occupation, not in their official
capacities as members of the judiciary.

6

“to modify the jurisdiction of the Supreme Court”6 were maliciously, criminally,
and intentionally false.

Mighty generous of these justices in Tallahassee, then

and now, to surrender their power.7

6

Jenkins at 1360-1365. Justice Adkins, dissents with an opinion. The
Extraordinary Remedy ofMandamus: A Creative Solution to Formidable
Jurisdictional Hurdles. David E. Wolff. Vol 90, No. 2 February 2016. Florida
Bar Journal.
7
Like Wolff, and Martin A. Dyckman, A Most Disorderly Court, Scandal
and Reform in the Florida Judiciary (2008 ed.), PETITIONER discards the
excuse that “ceding power to the district courts of appeal” prevented crooked
Florida Supreme Court justices from “again reach[ing] down and snatch[ing] up
cases,” as they did on at least two occasions, “for political or monetary motives.”
The Extraordinary Remedy ofMandamus, ibid. Williams-Yulee v. Florida
Bar, 135 S. Ct. 1656,1662-1663 (2015).
Indeed, although his research is inconclusive and ongoing, and still
premature to contemplate any legal recourse, PETITIONER has been noticing
that, because trial and appellate court judges are chosen by certain ubiquitous
law firms, not—according to the mythology, the People of Florida—, they are the
ones now in a position “to offer improper favors” and obtain “favorable rulings
on behalf’ of those law firms and “political supporters.”
Thus, the assumption “that an appeal to a district court of appeal” from an
indigent, and indigent PROSE Black or Hispanic party “will receive earnest,
intelligent, fearless consideration and decision” is cynical, at best. Lake v. Lake
at 643. Appellate judges in Florida invariably favor the state and local
governments and those law firms—who choose them for the bench—and issue
them detailed written opinions, and disdainfully issue PER«CVRIAM
affirmances without opinions only to the indigent, and indigent PROSE
Black or Hispanic parties intentionally to eliminate the possibility of
obtaining discretionary review for a Petition for a Writ of CERTIORARI
to the Florida Supreme Court.

7

But minorities and the poor knew exactly what “modifying jurisdiction” meant.
In 1957 racists Florida Supreme Court justices declared that they had “the right to
exercise.. .sound judicial discretion”8 to refuse to admit a Black man to the
University of Florida College of Law because it would inconvenience racists.9
In 1980, racist and elitist Florida legislators, and Florida Supreme Court
justices realized that if they omitted reference in their amendment to fundamental
rights, and suspect classes like Blacks, Hispanics. other minorities, and the
poor, that they would give cover to those racist and elitist justices and appellate
judges in 1980, and since 1980, to racist and elitist judges to bar them from
discretionary jurisdiction to the Florida Supreme Court, and to allow the districts
courts of appeals’ judges to issue PER*CVRIAM affirmances without opinions,
in the vast majority of cases, to cases brought by indigents, and indigent
PROSE Black and Hispanic parties.10
So, when the People of Florida went to vote in 1980 the ballot did not state

8

In The State of Florida Ex Rel. Virgil D. Hawkins, Relator v. Board of
Control, 93 So. 2d 354,359-360 (Fla. 1957), the Florida Supreme Court’s justices
claimed that the United States Supreme Court did not have jurisdiction to force
Florida to breach its ““fixed rules of practice and procedure.”” Id. at 358. This is
the same canard that the judiciary of Florida is employing against PETITIONER.
9

Id. at 359-360.

8

PROSE Black and Hispanic parties.11
So, when the People of Florida went to vote in 1980 the ballot did not state
what it really was: “an amendment to bar access to the discretionary juris­
diction of the Supreme Court to the poor, and to poor Blacks, Hispanics” but,
“misleadingly and euphemistically”: “Proposing an amendment to the State
Constitution to modify the jurisdiction of the Supreme Court.”12
All but one of the justices had successfully deceived the People of Florida.13

10 “The PCA is the most common decision in the District Courts of Appeal of
Florida.” Craig E., Leen. Without Explanation: Judicial Restraint, Per
Curiam Affirmances, and the Written opinion Rule. FIU Law Review,
Vol. 12, Number 2 (2017), page 311. PCAs (including PCA with a citation which
Also bar appeals to the Florida Supreme Court) issued by the five District Courts
of Appeals of Florida average 70%. Ibid.
Just a perfunctory examination reveals that PER«CVRIAM affirmances
without opinions (and PCAs with a citation which also bar appeals to the Florida
Supreme Court) are issued only to indigents, and indigent PROSE parties of
Black and Hispanic descent. The Third District Court of Appeal’s website
posts PCAs beginning in July 18, 2001.
11

Jenkins at 1363-5, Justice Adkins, dissenting.

12 Jenkins at 1363-1364. Justice Adkins, dissenting. “[In the Amendment]
We find regression instead of progression.. .Given the complex nature of those
procedures, few voters understand the issue.”
13 Jenkins at 1359. The justices mockingly commented: “With regard to
review by conflict certiorari of per curiam decisions rendered without opinion,
they were absolutely correct.”
9

If there was any doubt about the discriminatory intent of the Amendment to
Florida Constitution Article V, §3(b)(3) and Jenkins v. State, 385 So. 2d 1356
(1980) there was none left after a Judicial Management Council composed of ten
Committee Members14 met in 2000 to decide whether to modify or eliminate
PER*CVRIAM affirmed decisions issued without opinions. The elephant in the
room—the fact that minorities and the poor received the vast majority of PER*
CVRIAM affirmances issued without opinions—was only addressed by the
Public Defender in Exhibit H.15,16

14

Judicial Management Council. Final Report and Recommendations.
Committee on Per Curiam Affirmed Decisions, May 2000. The Members were
five District Court judges, one State Attorney, and one Assistant State Attorney,
and one Assistant Public Defender, one Public Defender, and one Private
Attorney. Seven gubmint officials deciding against three defenders of the
indigent and minorities. It was going to be a close vote count.
15
“PCAs diminish the appearance of fairness and meaningful access to courts.”
The Supreme Court of the United States has reviewed and reversed Florida PCAs
“perceiving significant constitutional issues worthy of comment.” (emphasis).
She cited: Florida v. Rodriguez, 469 U.S. 1 (1984); Ibanez v. Florida Department
of Business and Professional Regulation Bd. ofAccountancy, 512 U.S. 136
(1994); Hobbie v. Unemployment Appeals Commission of Florida, 480 U.S. 136
(1987); Brooks v. Florida, 389 U.S. 413,415 (1967); and Callender v. Florida,
380 U.S. 519 (1965).
16

In the landmark case Gideon v. Wainwright, 372 U.S. 335 (1963) this Court
unanimously held that indigent defendants in criminal trials have the fundamental
right to assistance of counsel protected by the Fourteenth Amendment to the
Constitution of the United States. Incidentally, Gideon’s appeal to the Florida
10

Second district court of appeal judge Monterey Campbel, III, Chairman of the
Committee, expressed his dissatisfaction of the prose employed by the attorneys
during the debates. 17,18,19
After serious, contentious, and robust discussions, and deep thoughts and

Supreme Court was denied “without an opinion.” Id. at 227.
17

“Unfortunately, there have been some caught up in the fervor of their
opposition to PCAs, who have voiced their opposition with what amounts to
thinly disguised accusations of laziness at best, and malevolence and/or
malfeasance at worst directed toward Florida’s appellate judges.”
18

Judicial laziness was noted by none other than Thomas Jefferson, a man in
the best position to evaluate judges because he observed the result of their work.
“[T]he practice [by judges ‘of developing their opinion methodically, and even of
making up an opinion at all’] is certainly convenient, for the lazy the modeft &
the incompetent.” [emphasis]. Letterfrom Thomas Jefferson to William
Johnson, 27 October 1822. Johnson was an Associate Justice of the US
Supreme Court from 1804 to 1834 nominated by Jefferson.
19

Since he cannot see appellate judges in Florida at their tasks, PETITIONER
cannot possibly opine about their working habits. However, the historical record
and the data from thousands of decisions by the district courts of appeal in Florida
since 1980 are undisputable. Since 1980 all justices of the Florida Supreme Court,
except one, and all the justices since then, have been, and are undistinguishable
from racists and elitists; and so are judges of all the district courts of appeal in
Florida. Districts courts of appeal’s certainly are not lazy regarding cases brought
by certain law firms; they actively, and intentionally, issue PCA without opinions
to the appeals brought by minorities and the poor. The facts are the facts.
Occasionally, they issue them a citation opinion which also bar them from
invoking the discretionary jurisdiction to the Florida Supreme Court.

11

profound deliberations, the PCA Committee rejected the abolishment of PCAs.20
In December 5, 2017 PETITIONER Jose Yeyille, an indigent PRO*SE party
of Hispanic descent, submitted an appeal to the Third District Court of Appeals
of Florida against Armandina Acosta-Leon, Lisa Robertson, Asuncion Valdes,
Egna Rivas, Alberto Carvalho, and The School Board of Miami-Dade County,
Florida.
In May 2, 2018 a panel of the Third District Court of Appeal composed of
judges Lagoa, Salter, and Kevin Emas issued a PER*CVRIAM affirmance
without opinion to PETITIONER. Jose Yeyille v. Armandina Acosta-Leon;
et al. CASE No. 3D17-2605. (Appx. 10).
In May 22, 2018 that panel denied PETITIONER’S motions for rehearing,
clarification, and issuance of written opinion. (Appx. 9).
In May 31, 2018 the Florida Supreme Court denied his invocation of its
discretionary jurisdiction to petition for a Writ of CERTIORARI pursuant to the
authority of Jenkins v. State, 385 So. 2d 1356 (Fla. 1980) because the Third
District Court of Appeal’s decision is a PER«CVRIAM affirmance without
opinion. Jose Yeyille v. Armandina Acosta-Leon; etal. CASE NO.: SC18845. (App. 8).

20

Judicial Management Council, page ix.
. 12

Upon learning about the lamentable background and genesis of the Amendment
to Article V, Section 3(b)(3) of the Florida Constitution, the Florida Supreme
Court’s villainous Jenkins decision, and the ongoing and unremitting hatred
against indigents, and indigent PROSE Black and Hispanic parties by the justices
of that Court, and the judges of all the appellate courts of Florida since 1980,
despite the protests of Florida attorneys at the Judicial Management Council.
Final Report and Recommendations. Committee on Per Curiam Affirmed
Decisions, in May 2000; and armed with these undisputable facts and data, and
glorious jurisprudence, PETITIONER submitted an All Writs petition to the
Florida Supreme Court challenging the constitutionality of the 1980 Amendment
to the Florida Constitution V, §3(b)(3) and Jenkins v. State, 385 So. 2d 1356
(1980), and petitioning that Court to declare both unconstitutional, overrule
Jenkins, and reinstate his invocation of its discretionary review for his Writ of
CERTIORARI to review the Third District Court of Appeal’s PER«CVRIAM
affirmance without opinion.
In July 6, 2018 the Florida Supreme Court dismissed PETITIONER’S petition
for all writs “for lack of jurisdiction because the petitioner has failed to cite an
independent basis that would allow the Court to exercise its all writs authority
and no such basis is apparent on the face of the petition.” (emphasis). Jose

13

Yeyille v. Armandina Acosta-Leon; et al. SC NO.: SC18-937. (App. 7).
In July 9, 2018 PETITIONER Jose Yeyille, an indigent PRO-SE man of
Hispanic descent, submitted in the Eleventh Circuit Court of Miami-Dade County
his Petition For Declaratory Judgments for Constitutional Challenges,
eventually amended to Amended Petition For Declaratory Judgments For
Constitutional Challenges pursuant to Florida Declaratory Judgment
Statutes §§86.011 through 86.111, CASE No. 2018-22362 challenging the
constitutionality of Florida Constitution Article V. §3(b)(3) and Jenkins v.
State. 385 So. 2d 1356 (1980) because, since 1980, they have violated the Equal
Protection, Due Process, and Access to Court rights of indigents, and indigent
PROSE Black and Hispanic parties protected by Section 1 of the Fourteenth
Amendment to the U.S. Constitution, and Article I, §§ 2, 9, and 21 of the
Constitution of the state of Florida, and seeking injunctive and other related
reliefs:
In his Amended Petition PETITIONER “moved the court to take judicial
notice of all the opinions—especially all the PER«CVRIAM affirmances
without opinions—issued by all the District Court of Appeals of Florida,
particularly those of the Third District Court of Appeal, since 1980.
Amended Petition, pages 9-11, PETITIONER requested:

14

“that this Court declare unconstitutional the “expressly” provision in the
Constitution of the State of Florida, Article V, §3(b)(3) “or that expressly and
directly conflicts with a decision of another district court of appeal or of the
supreme court on the same question of law”; and/or
that this Court declare unconstitutional Article V, §3(b)(3) of the Constitu­
tion of the State of Florida in its entirety; and/or
that this Court declare unconstitutional the “expressly” provision in Florida
Rule of Appellate Procedure 9.030(a)(2)(A)(iv); and/or
that this Court declare unconstitutional PCAs issued by the district courts of
Appeals of Florida; and/or
that this Court order the Third District Court of Appeal to issue a written
opinion in PETITIONER’S case, 3D 17-2605; and/or
that this Court order the Third District Court of Appeal to reinstate and/or
rehear PETITIONER’S case; and/or
that this Court order the Florida Supreme Court to reinstate and/or rehear
PETITIONER’S case; and/or
that this Court overrule/abrogate Jenkins v. State, 385 So.2nd 1356 (Fla. 1980),
and/or
that this Court overrule/abrogate Jenkins v. State, 385 So.2nd 1356 (Fla. 1980)

15

not only regarding PETITIONER’S Petition, but also retroactively to the year in
which the Florida Constitution’s Article V, 3§(b)(3) was enacted and Jenkins
decided. Norton v. Shelby County, 118 U.S. 425, 442 (1886):
“[A]n unconstitutional act is not a law; it confers no rights; it imposes
no duties; it affords no protection; it creates no office; it is, in legal
contemplation, as inoperative as though it had never been passed.”
Citizen Jose moves this Court to enjoin all the district courts of appeals in
Florida—especially and particularly the Third District Court of Appeal—
from issuing PCAs, and order them to issue only written opinions.
PETITIONER demands a jury trial pursuant to Florida Statute §86.071.”
Copies of the Petition and Amended Petition, and compliance required by
Florida Rules of Civil Procedure, and all motions and appeals required by
Florida Rules of Appellate Procedure, were duly served to the Attorney
General of Florida.
On this occasion, the parties are identical, but nominal. The actual party is
the government, specifically, the judiciary of the state of Florida. It is a
Petition against the government pursuant to the First Amendment to the
U.S. Const. Amendment. 1, and Fla. Const. Article I, § 5: Petition Clauses
and Florida Declaratory Judgment Statutes §§86.011 through 86.111.
Intending further to clarify his already plain standing for the inevitable

16

appeals, in November 20, 2020, ten days before the oral hearing, PETITIONER
submitted a motion to supplement his Amended Petition with a paragraph:
“At all relevant times Petitioner Jose Yeyille was, and is, an indigentpro*se
Plaintiff of Hispanic descent.”
At the hearing in December 1 judge Antonio Arzola dismissed PETITIONER’S
Amended Petition with prejudice, denied his motion to supplement it because it
would be “futile”, and bade opposing counsel Mr. Garcia to furnish his Proposed
Order. That same day Mr. Garcia sent to PETITIONER the Proposed Order
PETITIONER objected at once in writing. In December 2, PETITIONER
formally submitted both his objection to the proposal requesting that “the
written final Order contain the court’s legal authorities” and his Motion
for Reconsideration of the Proposed Order contending, INTER*ALIA, and to
the point in the present PETITION, that the trial court was bound by the Florida
Declaratory Judgment statutes to exercise jurisdiction, and that the power of the
Florida Supreme Court “to determine the limits of the jurisdiction of its courts...
is subject to the restrictions imposed by the Federal Constitution” citing
McKnett v. St. Louis & S. F. Ry292 U.S. 230,233 (1934)(This case and other
authorities were included in the Amended Petition). That same day judge
Arzola denied the Motion without prejudice.

17

In December 4, 2020 judge Arzola copied and pasted Mr. Garcia’s Proposed
Order to the final Order dismissing PETITIONER’S AMENDED PETITION
with prejudice without any mention of any legal authority21, defiantly refusing
to fulfill his constitutional and statutory duty to exercise the court’s jurisdiction.
“[PETITIONER] fails to state a claim upon which relief may be granted
[because it] seeks to have this Court invalidate the rulings of the Third
District Court and the Florida Supreme Court and to find that these courts
violated his civil rights. IThereforeh ftlhis court has no jurisdiction
over Plaintiff22^ purported constitutional claims or to provide the
requested relief. [emphasislTOrder of Dismissal with prejudice, page 1].
(Appx. 6).
In December 6, PETITIONER submitted his second Motion for Reconsidera­
tion restating his first Motion for Reconsideration and, in addition, wielding
Davis v. Wechsler, 263 U.S. 22, 24-25 (1923) and Brown v. Western R. Co. of
Alabama, 338 U.S. 294,298-299 (1949) for the proposition that the trial court
did not have discretion or power to refuse to rule on PETITIONER’S federal
claims prominently pleaded and stated in his Amended Petition pursuant to
Florida Declaratory Judgment statutes; and did not state any binding precedent

21,23

Judge Arzola’s dismissal of the Amended Petition is also factually
baseless. PETITIONER has never brought constitutional challenges against
Florida in any federal court. His erroneous reliance on RES'IVDICATA
violated the Florida Supreme Court’s clear command in Topps v. State, 865 So.
2d 1253,1254 (Fla. 2004): “[U]nela bo rated denials entered in connection
18

for the court’s RES'IVDICATA Order23 because there is not any.
In December 7, judge Arzola denied his second Motion for Reconsideration
In December 8, PETITIONER submitted a Notice of Appeal of the Order of
Dismissal (Dec. 4) and second Motion for Reconsideration (Dec. 7).
In December 9, PETITIONER submitted his Suggestion for Certification
to the Florida Supreme Court of Florida of an appeal that “requires immediate
resolution.. .and is of great public importance and will have a great effect on the
administration of justice throughout the state.”
In May 26, 2021 a panel of the Third District Court of Appeal, composed of
Chief judge Emas, Scales, and Gordo, denied PETITIONER’S “Suggestion for
Certification” submitted in December 9, 2020 3D20-1824. ORDER (OR999).
[APPX. 5]; and dismissed PETITIONER’S appeal with a PER-CVRIAM
affirmance without opinion. May 26, 2021. 3D20-1824. (App. 5).

with all extraordinary writ petitions filed in any Florida court shall not be
considered decisions on the merits which would bar the litigant from present­
ing the same or a substantially similar issue on appeal or by a subsequent
writ petition, or by other means, in the same or a different Florida court.”
22
The trial court erroneously refers to PETITIONER as Plaintiff. The
PETITIONER label is important because it defines his constitutional standing
to claim rights protected by the Petition Clauses in the United States and Florida
Constitutions in his Amended Petition.
19

In May 28, 2021 PETITIONER timely submitted a Motion for Rehearing,
Certification of the question posed in his Suggestion for Certification to the
Florida Supreme Court, and Written Opinion.
In May 31, 2021 PETITIONER timely submitted his Amended Motion for
the Retroactive Disqualification of Chief Judge Kevin Emas, who had ruled on
PETITIONER’S case pursuant to United States Constitution, Fourteenth
Amendment, Section 1 Due Process Clause; Florida Constitution Article I,
Section 9 Due Process; and Florida Rules of Judicial Conduct CANONS 2,2A,
AND 3E(l)(b).
In June 2, 2021 Chief judge Emas, Scales, and Gordo denied
PETITIONER’S Pro se Amended Motion for the Retroactive Disqualification of
of Chief Judge Kevin Emas; and denied PETITIONER’S pro se Motion for
Rehearing, Certify Question of Great Public Importance, and for Written Opinion.
June 2, 2021. No. 3D20-1824. ORDER (OR57). (Appx. 4).
In June 5, 2021 PETITIONER submitted to the Florida Supreme Court a
Petition for Emergency Writ of Prohibition seeking the disqualification and
recusal of Chief judge Emas on federal and state due process grounds.
In June 10, 2021 PETITIONER submitted to the Florida Supreme Court a
Petition for Writ of MANDAMVS requesting that Court to command Judge

20

Arzola to obey his constitutional and statutory duty to rule on the constitution­
ality of Florida Constitution Article V, §3(b)(3) and Jenkins v. State, 385 So.
2d 1356 (1980), and the Third District Court of Appeal to issue a written
opinion because PETITIONER’S right (Petition Clause, Equal Protection, Due
Process, and Access to Courts) to obtain a ruling on the constitutionality of those
two provisions (which, to the best of his knowledge, may be an issue offirst
impression) had been flouted by the trial and appellate courts, and
PETITIONER had no immediate remedy by appeal to correct their errors.
His Petition for Writ of MANDAMVS was denied in June 14, 2021. SC21-888.
because the appellate court had issued a PCA. (Appx 3).
In June 18, 2021 PETITIONER submitted a Notice of Appeal invoking the
discretionary jurisdiction of the Florida Supreme Court for a petition for a
Writ of CERTIORARI.
In June 21, 2021 that Court dismissed the Notice for lack of jurisdiction
on account of Jenkins v. State, 385 So. 2d 1356 (1980).(Appx2).
In August 18, 2021 the Florida Supreme Court dismissed PETITIONER’S
Petition for Emergency Writ of Prohibition seeking the disqualification and
recusal of Chief judge Emas.

21

REASONS FOR GRANTING THE PETITION
The judiciary of the state Florida, from the trial court in the Eleventh Circuit
Court, to the Third District Court of Appeal, to the Florida Supreme Court, has
refused to decide important federal questions in a way that conflict with relevant
decisions of this Court. Sup. Ct. Rule 10(c)(2019). 28 U.S.C. §1257(a).
From his Amended Petition in the trial court to the petitions and motions
before the appellate court and Florida Supreme Court, PETITIONER Jose
Yeyille has, at all times, prominently and repeatedly presented his
constitutional challenges to the Florida judiciary.24 He has duly preserved
all issues for all appeals; and this Petition for a Writ of CERTIORARI.25

24
Webb v. Webb, 451 U.S. 493, 501 (1981). Bankers Life & Casualty Co.
v. Crenshaw, 486 U.S. 71, 76-82 (1988). F. Hofpmann-La Roche, Ltd. v.
Empagran, S.A., 542 U.S. 155,175 (2004).
25
[A] plaintiff must maintain a personal interest in the dispute at every
stage of litigation, including when judgment is entered...and must do so
6666
separately for each form of relief sought.”” [emphasis]. Uzuegbunam, et
(2021), page 10.
al.v. Preczewski, et al., 592 U.S.

22

ARGUMENT
PETITIONER repeats and restates his Statement of the Case in this Petition
for a Writ of CERTIORARI as if fully restated herein.
I.

WHATEVER SPRINGES THE STATE MAY SET FOR THOSE
WHO ARE ENDEAVORING TO ASSERT RIGHTS THAT THE
STATE CONFERS. THE ASSERTION OF FEDERAL RIGHTS.
WHEN PLAINLY AND REASONABLY MADE. IS NOT TO BE
DEFEATED UNDER THE NAME OF LOCAL PRACTICE 9999
[QUOTING DAVIS V. WECHSLER, 263 U.S. 22,24 (1923)].
BROWN V. WESTERN R. CO. OF ALABAMA, 338 U.S. 294,298299 (1949).
6666

PETITIONER submitted an Amended Petition for Declaratory Judgments for
Constitutional Challenges under Florida Declaratory Judgment Statutes §§86.011
through 86.11126,27 challenging the constitutionality of Article V, Section 3(b)(3)

26

Florida Statute §86.011 Jurisdiction of trial court.—The circuit and
county courts have jurisdiction within their respective jurisdictional amounts
to declare rights, status, and other equitable or legal relations whether or not
further relief is or could be claimed. No action or procedure is open to
objection on the ground that a declaratory judgment is demanded. The court’s
declaration may be either affirmative or negative in form and effect and such
declaration has the force and effect of a finaljudgment. The court may render
declaratory judgments on the existence, or nonexistence:
(1) Of any immunity, power, privilege, or right; or
(2) Of any fact upon which the existence or nonexistence of such immunity,
power, privilege, or right does or may depend, whether such immunity, power,
privilege, or right now exists or will arise in the future. Any person seeking a
declaratory judgment may also demand additional, alternative. coercive,
subsequent, or supplemental relief in the same action.
23

of the Florida Constitution and Jenkins v. State, 385 So. 2d 1356 (1980), and
other reliefs including reinstatement of his invocation of the discretionary juris­
diction for a petition for a writ of certiorari to the Florida Supreme Court.
Trial court Antonio Arzola defiantly evaded PETITIONER’S
constitutional challenges pursuant to the Fourteenth Amendment to the United
States Constitution.28,29,30 A panel of the Third District Court of Appeal

§86.021 Power to construe.—Any person claiming to be interested or who may
be in doubt about his or her rights under a deed, will, contract, or other article,
memorandum, or instrument in writing or whose rights. status, or other equitable
or leeal relations are affected by a statute. or any regulation made under
statutory authority, or by municipal ordinance, contract, deed, will, franchise, or
other article, memorandum, or instrument in writing may have determined any
question of construction or validity arising under such statute. regulation,
municipal ordinance, contract, deed, will, franchise, or other article, memo­
randum, or instrument in writing, or any part thereof, and obtain a declaration
of rights. status, or other equitable or leeal relations thereunder, [emphasis]
27
“The Circuit Court is authorized to adjudicate the question of the
constitutionality of a statute in a declaratory judgment proceeding.” Rosenhouse
v. 1950 Spring Term Grand Jury, 56 So. 2d 445, 448 (Fla. 1952).
28

Amer. Ry. Exp. Co. v. Levee, 263 U.S. 19,21 (1923).

29
“[A] state court whose ordinary jurisdiction as prescribed by local laws is
appropriate for the occasion, may not refuse to entertain suits under fthe
Constitution of the United Statesl.” McKnett v. St Louis & S. F. Ry., 292
U. S. 230, 233 (1934) femphasis addedl.

24

affirmed with a PCA without opinion, refused PETITIONER’S Suggestion to
Certify the question of great public importance to the Florida Supreme Court,
and his Motion for Rehearing, to issue a written opinion, and certify the question
of great public importance.
The Florida Supreme Court denied PETITIONER’S Notice of Appeal to
invoke its discretionary jurisdiction for his petitions for a Writ of CERTIORARI
because it lacked jurisdiction to review a PER«CVRIAM affirmance without
opinion issued by a district court of appeal under the authority of the case
whose constitutionality PETITIONER is challenging: Jenkins v. State, 385 So.
2d 1356 (1980). (Jose Yeyille v. Armandina Acosta-Leon, et al., SC 18-845
(May 31, 2018), and Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-931
(June 21, 2021).
Asserting the same ground, it dismissed his Petition to invoke all writs
jurisdiction (Jose Yeyille v. Armandina Acosta-Leon, et al., SCI 8-937 (July 6,
2018) relying on Jenkins’ clone, St. Paul Title Ins. Corp. v. Davis, 392 So. 2d

30

U.S. Const. Art. VI, Clauses 2-3: “Supremacy Clause”.
“[Jjudges in every State shall be bound [by federal laws] thereby, anything
in the Constitution or Laws of any State to the contrary notwithstanding.”
Howlett v. Rose, 496 U.S. 356,371 (1990)[emphasis].

25

1304, (Fla. 1980); his Petition for a Writ of MANDAMVS31to command the
trial and appellate courts to rule on PETITIONER’S constitutional challenges to
Article V, Section 3(b)(3) of the Florida Constitution and Jenkins v. State,
385 So. 2d 1356 (1980); and his Petition for a Writ of Prohibition seeking to
Disqualify Chief Judge Kevin Emas of the Third District Court of Appeal.32
(Jose Yeyille v. Armandina Acosta-Leon, et al., SC21-858 (August 18, 2021).

31 Florida’s ordinary jurisdiction (McKnett, SVPRA) for MANDAMVS for
petitioners who are not issued PCAs, namely, those who are not indigent, and
indigent PROSE Blacks and Hispanics is Kobayashi v. Kobayashi, 777 So. 2d
951 (Fla. 2000): “To be entitled to a writ of mandamus, the petitioner must show
a clear legal right to the performance by the respondent of a particular
duty.” (emphasis). In his Petition for the Writ of MANDAMVS, PETITIONER
contended the same legal ground that he has contended since his Amended
Petition for Declaratory Judgments for Constitutional Challenges in the trial
court, that no judge or justice in the State of Florida has discretion to evade
ruling on constitutional challenges based on the United States Constitution.
Brown v. Western R. Co. ofAlabama, 338 U.S. 294,298-299 (1949).
32 Florida’s ordinary jurisdiction {Brown and McKnett, SVPRA) to grant a
Petition of Prohibition to disqualify a judge for petitioners who are not issued
PCAs, namely, those who are not indigent, and indigent PROSE Blacks and
Hispanics is Dickenson v. Parks, 104 Fla. 577, 579 (Fla. 1932): “It is settled
law in this state that prohibition may be an appropriate remedy to prevent
judicial action, when the judge is disqualified, as well as when the judge is
without jurisdiction to act in the cause.” (emphasis). In his Petition for the
Writ of Prohibition, PETITIONER contended that in ruling on the constitution­
ality of his previous PCAs issued to PETITIONER in May 2, and May 22 of
2018 (APPENDICES 10 and 9) Chief Judge Kevin Emas violated
PETITIONER’S constitutional due process right to a fair trial. In re
Murchison, 349 U.S. 133,136 (1955). See pages 36-39 (INFRA.).
26

After seceding from the United States, Florida was compelled to return to
them in June 25, 1868. Since then, its judiciary has had a distinguished tradition
of flouting this Court’s commands and attempting to sabotage constitutional
challenges on bogus grounds. In The State of Florida Ex Rel. Virgil D. Hawkins,
Relator v. Board of Control, 93 So. 2d 354,358 (Fla. 1957) the justices of the
Florida Supreme Court held that the United States Supreme Court did not have
jurisdiction to force Florida to breach its ““fixed rules of practice and
procedure.

Now it is doing it, again.

Therefore, PETITIONER respectfully requests that this Court order the
judiciary of the State of Florida, including the Florida Supreme Court, to obey
this Court’s commands repeatedly stated in clear precedents, and rule on his
constitutional challenges to Article V, §§ 3(b)(3), 3(b)(7), and 3(b)(9) of the
Florida Constitution and Jenkins v. State, 385 So. 2d 1356 (1980) and
Grate v. State, 750 So. 2d 625 (Fla. 1999).
II.

WHETHER FLORIDA CONSTITUTION ARTICLE V, SECTION 3
(b)(3), JENKINS V. STATE, 385 SO. 2D 1356 (1980) AND GRATE v.
STATE, 750 So. 2d 625 (Fla. 1999) INTENTIONALLY BAR REVIEW
TO PETITIONS FOR WRITS OF CERTIORARI AND ANY OTHER
WRIT TO THE FLORIDA SUPREME COURT TO INDIGENTS
AND INDIGENT PRO-SE BLACK AND HISPANIC PARTIES IN
VIOLATION OF THEIR EQUAL PROTECTION AND DUE
PROCESS RIGHTS PROTECTED BY THE FOURTEENTH
AMENDMENT TO THE CONSTITUTION OF THE UNITED
STATES AND ACCESS TO COURTS RIGHTS PROTECTED BY
27

THE FOURTEENTH AMENDMENT AND THE PETITION CLAUSE
OF^THE-FIRST-AMENDMENT-Te-THE-eONSTTTUT-ION-OF-THEUNITED STATES.
PETITIONER repeats and restates his Statement of the Case in this Petition
for a Writ of CERTIORARI as if fully restated herein.
A. Whether PETITIONER can Petition the judiciary of the State of
Florida to declare unconstitutional Florida Constitution Article V,
§3(b)(3) and Jenkins v. State, 385 SO. 2D 1356 (1980).
Yes.
“[T]he right to petition extends to all departments of the Government. The
right of access to the courts is indeed but one aspect of the right of petition.”
California Transport v. Trucking Unlimited, 404 U.S. 508, 510 (1972).
The courts are the third branch of the government. Ibid. In his Amended
Petition submitted in the trial court, PETITIONER requested declaratory judg­
ments regarding the constitutionality of Florida Constitution Article V, §3(b)
(3) and Jenkins v. State, 385 So. 2d 1356 (1980) and injunctive reliefs.33
Although PETITIONER’S motivations in bringing these constitutional
challenges to that constitutional provision and that villainous case are purely
selfish, he is not unaware that their continued enforcement and the Florida

33

N.A.A.C.P. v. Button, 371 U.S. 415 (1963).

28

Supreme Court’s refusal to review PER«CVRIAM affirmances without opinions
affect hundreds of thousands of indigent, and indigent PROSE Black and
Hispanic parties. His advocacy is necessary, and is, and will be vigorous. 34,35
Standing
PETITIONER has standing to petition36,37,38 the courts of Florida for

34

“[L]itigation may well be the sole practicable avenue open to a minority to
petition for redress of grievances. Id. at 429-430.
35

What was true in Button is true today. “Lawsuits attacking racial dis­
crimination. . .are neither very profitable nor very popular.. .the problem is rather
one of an apparent dearth of lawyers who are willing to undertake such litigation.”
Id. at 443. Federal Rule of Civil Procedure 11: PETITIONER’S “legal
contentions are warranted by existing law... the factual contentions are warranted
on the evidence.”
36

United States Constitution, First Amendment. “Congress shall make no
law.. .abridging.. .the right of the people.. .to petition the Government for a
redress of grievances.” “[T]he Petition Clause protects the right of individuals to
appeal to courts.. .established by the government for resolution of legal disputes.
cut
[T]he right of access to courts for redress of wrongs is an aspect of the First
Amendment right to petition the government.”” Borough ofDuryea v. Guarneri,
564 U.S. 379, 387 (2011). Florida Constitution, Article I, § 5. “The people shall
have the right.. ..to petition for redress of grievances.”
37

Florida Chapter 86 Declaratory judgments, §86.021 through §86.111.

38

“The very idea of a government, republican in form, implies a right
on the part of its citizens.. .to petition for a redress of grievances....
[T]he right is one that cannot be denied without violating those
fundamental principles of liberty and justice which lie at the base of
all civil and political institutions, — principles which the Fourteenth
29

declaratory judgments for violations of his constitutional rights to Equal
Protection, Due Process, and Access to the Courts inflicted by the Florida
Supreme Court applying Florida Constitution Article V, §§3(b)(3) and
3(b)(7) in Jenkins v. State, 385 So. 2d 1356 (1980) and Grate v. State, 750
So. 2d 625 (Fla. 1999) to deny him the right to petition any writ to the
Florida Supreme Court. Carney v. Adams, 592 U.S.
Uzuegbunam, et al. v. Preczewski, et al., 592 U.S.

(2020).

(2021), page 10.

PETITIONER suffered an actual injury in fact39 caused by the Florida
Supreme Court when it twice denied its discretionary CERTIORARI jurisdiction
to PETITIONER to review his case because they are PER»CVRIAM af­
firmances without opinions on account of Florida Constitution Article V, §3(b)
(3) and Jenkins v. State, 385 So. 2d 1356 (1980). [Amended Petition Constitu­
tional Challenges, Appendix, Nov. 28,2018] [APPENDICES 1 and 2].
B.

Whether the judiciary of the State of Florida can legally
violate PETITIONER’S federal constitutional rights to
Equal Protection, Due Process, and Access to Courts.

No.40’41’42

Amendment embodies in the general terms of its due process clause.’*
De Jonge v. Oregon, 299 U.S. 353,364 (1937).
39

Lujan v. Defs. of Wildlife, 504 U.S. 555,560 (1992). Carney v. Adams,
(2020). Baker v. Carr, 369 U.S. 186,204 (1962).
592 U.S.
30

c.

Florida Constitution Article V, §§3(b)(3), 3(b)(7), and 3(b)(8),
Jenkinsv.-State,-385So.-2d-\356(l980)andGratev.State,-75G—
So. 2d 625 (Fla. 1999) (Writs of CERTIORARI, MANDAMVS,
and CERTIORARI) violate PETITIONER’S Equal Protection,
Due Process, and Access to Courts rights protected by Section 1
of the Fourteenth Amendment to the Constitution of the United
States.

PETITIONER repeats and restates his Statement of the Case in this Petition
for a Writ of CERTIORARI as if fully restated herein.
“In determining whether or not a state law violates the Equal Protection Clause,
we must consider the facts and circumstances behind the law, the interests which
the State claims to be protecting, and the interests of those who are disadvantaged

40
“The violation is none the less clear when that result is accomplished by the
state judiciary in the course of construing an otherwise valid...state statute
• • • • The federal guaranty of due process [and equal protection] extends to
state action through its judicial as well as through its legislative, executive or
administrative branch of government.” Brinkerhoff-Faris Co. v. Hill, 281
U.S. 673,680 (1930) (emphasis)remphasis added].
41
“The power of a State to determine the limits of the jurisdiction of its
courts and the character of the controversies which shall be heard in them is
subject to the restrictions imposed by the Federal Constitution.” McKnettv.
St. Louis & S. F. Ry., 292 U. S. 230,233 (1934) (emphasis).
9 9 9

42

“It is fundamental that state courts be left free and unfettered by us in
interpreting their state constitutions. But it is equally important that ambiguous
or obscure adjudications by state courts do not stand as barriers to a deter­
mination by this Court of the validity under the federal constitution of state
action.” {emphasis) Minnesota v. National Tea Co., 309 U.S. 551, 557 (1940).
31

by the classification.” Williams v. Rhodes, 393 U.S. 23,30 (1968).
The justices’ ostensible concern about “a staggering case load” in the
dockets of the Florida Supreme Court was an ill-disguised., tired, and spurious
pretext to achieve their true goal of closing its dockets, and those of the
appellate courts, to the plight of minorities and the poor. [Amended Petition].
The justices of the Florida Supreme Court had previously insisted
“that in actual practice this court has not been relieved
of any substantial portion of its workload by the policy
announced in Lake case respecting per curiam
decisions....[n]or is there any legal distinction between
the effect of a per curiam decision without opinion,
so that one is not entitled to and should not given any
more 6666verity”” than the other.” Foley v. Weaver
Drugs, Inc., Ill So. 2d 221, 233-224 (1965).
The justices mocked the People (“With regard to review by conflict certiorari
of per curiam decisions rendered without opinion, they [the People of Florida]
were absolutely correct.” Jenkins at 1358-59 (1980). This cynical and mocking
statement about the gullibility of Florida voters are equivalent to the Colorado
Civil Rights Commission’s hostile and mocking statements against a person’s
religious beliefs in Masterpiece Cakeshop Ltd. V. Colo. Civil Rights Comm’n,
138 S. Ct. 1719,1729-1731 (2018). The justices’ mocking comment in Jenkins
show lack of consideration for those they intentionally barred from the docket of
the Florida Supreme Court: minorities and the poor.
32

If it was not abundantly evident then that they had planned to close the Florida
Supreme Court’s dockets to the minorities and the poor, forty years after the
amendment was enacted the data (all the opinions—especially all the PCA
opinions—issued by the District Court of Appeals of Florida, particularly those
of the Third District, since 1980) [Amended Petition] establishes that the
appellate courts only PCA without opinion the minorities and the poor.42 It
irrefutably establishes beyond a reasonable doubt that the justices of the Florida
Supreme Court intended then, and intend now for PER«CVR1AM affirmances
without opinions to be almost absolutely issued, and limited to, the parties
who are poor, destitute, and minorities.
Moreover, they intentionally ignored the objections of unfairness of PC As
discussed at the Judicial Management Council: Final Report and Recom­
mendations Committee on Per Curiam Affirmed Decisions (May, 2000).

42

In his Motion for Rehearing of the District Court of Appeal’s PCA
without an opinion, PETITIONER restated his claims that the District Court of
Appeal’s PCA without opinion violated his Equal Protection and Due Process,
and his Access to Courts rights. “The plaintiff seasonably filed a petition for a
rehearing in which he recited the above facts and asserted, in addition to his
claims on the merits Ithatl in refusing relief...the court transgressed Ihis
constitutional rightsl...Already repeatedly stated, the additional federal
claim thus made was timely, since it was raised at the first opportunity.”
Brinkerhoff-Faris Co. v. Hill, 281 U.S. 673, 677-678 (19301 [emphasisl.

33

‘TA1 clear pattern, unexplainable on grounds other than race, emerges from
the effect of the state action even when the governing legislation appears neutral
on its face.” Village ofArlington Heights v. Metropolitan Housing Development
Corp., 429 U.S. 252,266 {\911)(emphasis).
“Though the law itself be fair on its face and impartial in appearance, yet, if
it is applied and administered by public authority with an evil eye and unequal
hand, so as practically similar circumstances, material to their rights, the denial
of equal justice is still within the prohibition of the Constitution.” Yick Wo v.
Hopkins, 118 U.S. 356,373-374 (lSS6)(emphasis):
“Central both to the idea of the rule of law and to our own Constitution's
guarantee of equal protection is the principle that government and each of its
parts remain open on impartial terms to all who seek its assistance.” ‘Equal
protection of the laws is not achieved through indiscriminate imposition of
inequalities.”’ Sweatt\. Painter, 339 U.S. 629, 635 (1950) (quoting Shelley v.
Kraemer, 334 U. S. 1,22(1948”)). Romer v. Evans, 517 U.S. 620, 633 (1996).
“A State is not required by the Federal Constitution to provide appellate courts
or a right to appellate review at all... But that is not to say that a State that does
grant appellate review can do so in a way that discriminates against some...
defendants on account of their poverty.” Griffin v. Illinois, 351 U.S. 12,18

34

(1956).
“[Disparate treatment has the effect of classifying appellants according to
wealth, which, like race, is a suspect classification.” Cruz v. Hauck, 404 U.S.
59, 64-65 (1971) (emphasis).
PETITIONER requests that the court employ heightened scrutiny regarding
the Florida Supreme Court’s and the districts courts of appeals’ intentional
discrimination of the poor according to the criteria stated in Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 442-5 (1985); in addition to strict scrutiny
to their intentional discrimination of minorities.*3,44 (Amended Petition)

43

Rose, Henry. The Poor as a Suspect Class under the Equal Protection
Clause: An Open Constitutional Question, 34 Nova Law Review 407 (2010).
(APPX. 10, Amended Petition, p. 13).

44

“Who are the poor?” In imagining the poor, racist stereotypes are
usually not far beneath the surface. The poor are overwhelmingly
assumed to be people of colour, whether African Americans or
Hispanic “immigrants”. The reality is that there are 8 million more
poor Whites than there are poor Blacks. The face of poverty in
America is not only Black or Hispanic, but also White, Asian, and
many other backgrounds. According to the official poverty
measures, in 2016, 12.7 percent of Americans were living in
poverty, according to the supplemental poverty measure, the
figure was 14 percent.” United Nations General Assembly.
Human Rights Council: Report of the Special Rapporteur on
Extreme Poverty and Human Rights on his mission to the
United States of America (2018), page 6. (APPX. 10, p. 13).

35

[ Village, Yick Wo, and Griffin].
“[A] provision of the Bill of Rights which is

fundamental and essential to a

fair triaF" is made obligatory upon the States by the Fourteenth Amendment.”
Gideon v. Wainwright, 372 U.S. 335,342 (1963). “A fair trial in a fair tribunal is
a basic requirement of due process.” In re Murchison, 349 U.S. 133,136 (1955).
Jenkins and Florida Constitution Article V, §3(b)(3) intentionally abolished
the former right of indigent, and indigent PROSE Black and Hispanic parties
to invoke the discretionary jurisdiction for a Writ of CERTIORARI in the Florida
Supreme Court for PER»CVRIAM affirmances issued without opinion. “A fair
trial in a fair tribunal is a basic requirement of due process.” In re Murchison,
349 U.S. 133,136 (1955).
Therefore, the Florida Supreme Court violated PETITIONER’S constitutional
rights to Equal Protection, Due Process, and Access to Courts protected by the
United States Constitution when it (APPENDICES 1 and 2) refused to review
his case on discretionary petition of CERTIORARI under the villainous authority
of Jenkins and Florida Constitution Article V, §3(b)(3).
D.

The Florida Supreme Court’s dismissal of PETITIONER’S
Writ of MANDAMVS and Writ of Prohibition for lack of
jurisdiction on account of the PER*CVRIAM affirmances
without opinions issued by the appellate court violates
PETITIONER’S Equal Protection, Due Process, and Access
36

to Courts rights protected by Section 1 of the Fourteenth
Amend menttotheConstitutionofthe.United.States.___
The Florida Supreme Court dismissed PETITIONER’S Writs of
MANDAMVS (Appx. 2) and Prohibition (Appx. 1) for lack of jurisdiction on
the ground that the appellate court issued PCAs. In addition, for reasons that
cannot be understood by anyone except the Court that issued it, it dismissed
PETITIONER’S Writ of Prohibition because “(t)o the extent Petitioner seeks a
writ of prohibition, the petition is hereby moot.” (Appx. 1).
In the state of Florida “prohibition may be an appropriate remedy to prevent
judicial action when the judge is disqualified.” Dickenson v. Parks, 104 Fla.
577, 579 (Fla. 1932). It was for the sole purpose of disqualifying Chief Judge
Emas on federal due process grounds that PETITIONER submitted his Writ of
Prohibition.45 It was timely and sufficient. In re Estate of Carlton, 378 So. 2d
1212,1216-17 (Fla. 1979).46

45 In re Murchison, 349 U.S. 133,136 (1955). William Cramp Sons v.
Curtiss Turbine Co., 228 U.S. 645 (1913). Rexford v. Brunswick-Balke Co.,
228 U.S. 339 (1913). Moran v. Dillingham, 174 U.S. 153 (1899). Aetna Life
Insurance Co. v. Lavoie, 475 U.S. 813, 820 (1986).
46
“[Ejach justice must determine for himself both the legal sufficiency of a
request seeking his disqualification and the propriety of withdrawing in any
particular circumstances.” Id. 1216-1217.
37

It is a mystery what caused PETITIONER’S Writ of Prohibition to become
moot. “[A] case is moot when the issues presented are no longer ‘live’ or the
parties lack a legally cognizable interest in the outcome.. .fevenl fwlhere one
of the several issues presented becomes moot, the remaining live issues
supply the constitutional requirement of a case or controversy.” Powell v.
McCormack, 395 U.S. 486, 496-497 (T969)remphasisl(emphasis).
The Supreme Court should have been frank and stated the real reason why
it refused to review PETITIONER’S Writ of Prohibition, the same reason it
dismissed his writs of CERTIORARI and writ of MANDAMVS, the same
reason it dismisses all petitions for these writs submitted by indigent, and
indigent PROSE Black and Hispanic parties, because the trial and appellate
judiciary of the state of Florida exclusively afford indigent, and indigent
PROSE Black and Hispanic parties the privilege of receiving judgments
without legal authorities and PER«CVRIAM affirmances without opinions;
because forty-one years ago racist and elitist justices decided to bar access to the
Supreme Court to indigents, and indigent PROSE Black and Hispanic parties
instead of confronting their felonious conduct and racism. (Jenkins v. State, 385
So. 2d 1356 (1980). Dyckman, Martin A. A Most Disorderly Court, Scandal
and Reform in the Florida Judiciary (2008 ed.). Williams-Yulee v. Florida Bar,

38

135 S. Ct. 1656,1662 (2015). The State of Florida Ex Rel. Virgil D. Hawkins,
Relator v. Board of Control, 93 So. 2d 354 (Fla. 1957)). (SVPRA).
CONCLUSION AND RELIEF SOUGHT
In consideration of the foregoing, PETITIONER respectfully urges this
Court:
—to grant his Petition for a Writ of CERTIORARI kindly to compel the
judiciary of the state of Florida, and the Florida Supreme Court in particular,
to rule on the constitutionality of Florida Constitution, Article V§§3 (b)(3),
3(b)(7), and 3(b)(8), Jenkins v. State, 385 So. 2d 1356 (1980), and Grate v.
State, 750 So. 2d 625 (Fla. 1999)—Jenkins' clone—requested in
PETITIONER’S Amended Petition for Declaratory Judgments for
Constitutional Challenges to Florida Constitution Article V, §3(b)(3) and
Jenkins v. State, 385 So. 2d 1356 (1980); and this Petition for Writ of
Certiorari to the United States Supreme Court.
__to grant his Petition for a Writ of CERTIORARI kindly to compel the
Florida Supreme Court to review PETITIONER’S writs of CERTIORARI,
Writ of MANDAMVS, and Writ of Prohibition.
—In addition, PETITIONER respectfully requests that this Court grant him
any, and all other relief as this Court may deem just and appropriate.

39

Date: August 23, 2021

Respectfully submitted,

JY
Jose Yeyille, PROSE
5505 SW 135th Court
Miami, Florida 33175

40

